No.

IN THE
SUPREME COURT OF THE UNITED STATES

Ernest Seadin
(Your Name)

— PETITIONER

VS.
Dean Williams

— RESPONDENT(S)

PROOF OF SERVICE
Ernest Seadin
__________________ , do swear or declare that on this date,
I,
August 25.
, 2020_, as required by Supreme Court Rule 29 I have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS and
another copy of PETITION FOR A WRIT OF CERTIORARI on each party to the
above proceeding or that party’s counsel, and on every other person required to be
served, by depositing an envelope containing the above documents in the United- States
mail properly addressed to each of them and with first-class postage prepaid, or by
delivery to a third-party commercial carrier for delivery within 3 calendar days.
I declare under penalty of perjury that the foregoing is true and correct.

NICOLE GELLAR
First Assistant Attorney General
Civil Litigation & Employment Section
Attorneys for the CDOC
1300 Broadway, 10th Floor
Denver, CO. 80203

Executed on August 25, 2020

Ernest Seadin (Signature)

No.
IN THE
SUPREME COURT OF THE UNITED STATES

Ernest Seadin
(Your Name)

— PETITIONER

VS.
Dean Williams

— RESPONDENT(S)
PROOF OF SERVICE

I, Ernest Seadin
__________________ , do swear or declare that on this date,
Ly IH
, 20
, as required by Supreme Court Rule 29 I have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows^
NICOLE GELLAR
First Assistant Attorney General
Civil Litigation & Employment Section
Attorneys for the CDOC
1300 Broadway, 10th Floor
Denver, CO. 80203
I declare under penalty of perjury that the foregoing is true and correct.
Executed on July

/

, 2020_

Ernest Seadin
14

